TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Invoice Audit of the Financial
                     Statement/Government Accountability
                    Office Audit Support Services Contract –
                                TIRNO-03-K-00167



                                           April 23, 2007

                              Reference Number: 2007-10-069




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 23, 2007


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Invoice Audit of the Financial
                             Statement/Government Accountability Office Audit Support Services
                             Contract – TIRNO-03-K-00167 (Audit # 200610030)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Financial
 Statement/Government Accountability Office Audit Support Services Contract
 TIRNO-03-K-00167. The overall objective of this review was to determine whether selected
 invoices submitted and paid under contract number TIRNO-03-K-00167 were appropriate and in
 accordance with the contract’s terms and conditions. We initiated this audit to determine
 whether the invoices submitted by the contractor and paid by the IRS were accurate, supported,
 and allowable.

 Impact on the Taxpayer
 Contract expenditures represent a significant outlay of IRS funds. The Treasury Inspector
 General for Tax Administration has made a commitment to perform audits of these expenditures.
 To the extent our reviews assist the IRS in identifying and recovering inaccurate, unsupported,
 and unallowable charges, contract expenditures are reduced and taxpayer funds are saved.

 Synopsis
 We initially identified questionable charges of $744,340.78 because the contractor did not
 provide the necessary documentation to support that the charges were accurate and allocable to
 the contract. Specifically, these charges consisted of $735,085.16 in unsupported labor charges
 and $9,255.62 in unsupported travel charges. We provided both the IRS and contractor
 personnel details of these questionable charges in June 2006, October 2006, and December 2006.
                      Invoice Audit of the Financial Statement/Government
                     Accountability Office Audit Support Services Contract –
                                        TIRNO-03-K-00167


It was not until after we presented the questionable charges in a January 2007 discussion draft
report that the IRS provided adequate documentation to support all but $22,536.21 of the
questionable labor charges. During the period when these charges were invoiced by the
contractor, we did not identify any significant verification performed by the IRS of any source
documents such as contractor-provided payroll or related payment records to confirm labor
charges or receipts to confirm travel charges.
As part of this audit, we also examined contract correspondence files and interviewed the
Contracting Officer, the Contract Specialist, and the Contracting Officer’s Technical
Representative to determine whether the contractor’s deliverables were acceptable. Based on
these limited auditing procedures, nothing came to our attention that would lead us to believe
there were significant problems with the deliverables associated with the invoices included in our
tests.

Recommendation
We recommended the Director, Procurement, require the appropriate Contracting Officer to
review the identified questionable charges of $22,536.21 and initiate any recovery actions
deemed warranted.

Response
IRS management agreed with our recommendation. The Contracting Officer is working closely
with the contractor to obtain additional documentation. Upon receipt of the supporting
documentation, the Contracting Officer will conduct a thorough analysis, determine the amount
of any recoverable costs, and initiate the appropriate action to recover those costs.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have any questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                  2
                             Invoice Audit of the Financial Statement/Government
                            Accountability Office Audit Support Services Contract –
                                               TIRNO-03-K-00167




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Questionable Contract Charges and Invoice Verification Process ...............Page 2
                    Recommendation 1:..........................................................Page 4

          Contract Deliverables Were Acceptable.......................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measure ................................................................Page 10
          Appendix V – Management’s Response to the Draft Report .......................Page 11
        Invoice Audit of the Financial Statement/Government
       Accountability Office Audit Support Services Contract –
                          TIRNO-03-K-00167




                   Abbreviations

CO           Contracting Officer
COTR         Contracting Officer’s Technical Representative
IRS          Internal Revenue Service
                          Invoice Audit of the Financial Statement/Government
                         Accountability Office Audit Support Services Contract –
                                            TIRNO-03-K-00167




                                             Background

In March 2003, the Internal Revenue Service (IRS) awarded contract number
TIRNO-03-K-00167, a hybrid labor-hour/firm-fixed-price contract1 to assist the IRS in
complying with the Chief Financial Officers Act of 1990.2 The contractor provided professional
financial and accounting services to assist the IRS in preparing its annual financial statements
and in the resolution of material weaknesses and other issues identified in audits of those
financial statements.
The contract was awarded for a base period from March 2003 through March 31, 2004. The
contract included options that would carry the term of the contract through December 31, 2005.
According to the IRS Request Tracking System,3 as of March 8, 2006, the IRS awarded
$10,464,464.70 and approved $9,640,811.87 for payment to the contractor.
Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration made a commitment to perform audits of these expenditures.
This audit was designed to determine whether amounts paid by the IRS under this contract were
accurate, supported, and allowable through a review of contractor invoices and supporting
documentation.
This audit was performed at the Office of Procurement in the Office of Agency-Wide Shared
Services in Oxon Hill, Maryland, and the contractor’s facilities in Washington, D.C., during the
period March 2006 through January 2007. Opinions expressed in this report pertain only to
invoices included in our sample. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.


1
  A labor-hour contract provides for acquiring direct labor hours at specified fixed hourly rates that include wages,
overhead, general and administrative expenses, and profit. A firm-fixed-price contract provides for a price that is
not subject to any adjustment on the basis of the contractor’s cost experience in performing the contract.
2
  Pub. L. No. 101-576, 104 Stat. 2838 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
42 U.S.C.). This Act requires Federal agencies to develop auditable financial statements and to present these
statements in an annual financial report. The Government Accountability Office audits the IRS’ financial statements
each fiscal year. These financial statements report the assets, liabilities, net position, net costs, changes in net
position, budgetary resources, reconciliation of net costs to budgetary obligations, and custodial activity related to
the IRS’ administration of its responsibilities for implementing Federal tax legislation.
3
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic receipt and acceptance
of items delivered and provides an interface with the Integrated Financial System (the IRS financial accounting
system) for payment processing.


                                                                                                             Page 1
                               Invoice Audit of the Financial Statement/Government
                              Accountability Office Audit Support Services Contract –
                                                 TIRNO-03-K-00167




                                      Results of Review

Questionable Contract Charges and Invoice Verification Process
We examined supporting documentation obtained from the IRS Office of Procurement, as well
as documentation received directly from the contractor, for a judgmental sample of 53 invoices
(see Appendix I for details). The 53 invoices were processed between May 2003 and
January 2006, and involved $8,490,128.98 in IRS payments. The primary expenses claimed by
the contractor consisted of labor costs and travel costs.

Questionable contract charges
We initially identified questionable charges of $744,340.78. Specifically, these charges
consisted of $735,085.16 in unsupported labor charges and $9,255.62 in unsupported travel
charges. The labor charges were considered questionable because the contractor did not provide
the necessary documentation to support that the labor charges were accurate and allocable to the
contract. The travel charges were considered questionable because there were no receipts
provided to support the accuracy and allocability of such items as airfare, lodging, mileage, and
car rental charges. We provided details of these charges to the contractor and the IRS in
June 2006, October 2006, and December 2006.
It was not until after we presented the questionable charges in a January 2007 discussion draft
report that the IRS provided adequate documentation to support all but $22,536.21 of the
questionable labor charges. The IRS’ explanation for this delay was that it was most likely due
to the lack of communication among the responsible parties when the questionable charges were
initially provided to the IRS and the contractor. During the period when these charges were
invoiced by the contractor, the IRS did not review, as part of its invoice verification process, any
source documents such as contractor-provided payroll or related payment records to confirm
labor charges or receipts to confirm travel charges.
The Federal Acquisition Regulation4 stipulates a contractor is responsible for accounting for
costs appropriately and for maintaining records, including supporting documentation, adequate to
demonstrate that costs claimed have been incurred. The Federal Acquisition Regulation also
provides that costs shall be allowed to the extent they are reasonable, allocable, and allowable
under the Federal Acquisition Regulation. Further, Federal Acquisition Regulation
52.232-7(a)(1), Payments Under Time-and-Materials and Labor-Hour Contracts, states, in part,



4
    48 C.F.R. ch. 1 (2005).
                                                                                             Page 2
                          Invoice Audit of the Financial Statement/Government
                         Accountability Office Audit Support Services Contract –
                                            TIRNO-03-K-00167



“The Contractor shall substantiate vouchers by evidence of actual payment and by individual
daily job timecards, or other substantiation approved by the Contracting Officer.”
The Federal Travel Regulation5 requires airline, lodging, and car rental receipts be provided and
that reimbursement be based on the actual cost not to exceed the per diem rate or other required
cost limitation policies. Additionally, the Federal Travel Regulation requires that any travel
expenses in excess of $75 must be supported by a receipt when claimed on a travel voucher.

Invoice verification process
Contracts may be entered into and signed on behalf of the Federal Government only by
Contracting Officers (CO), who have the authority to administer or terminate contracts and make
related determinations and findings. The COs are responsible for ensuring performance of all
necessary actions for effective contracting, ensuring compliance with the terms of the contract,
and safeguarding the interests of the United States in its contractual relationships. Sometimes
Contract Specialists may perform the same contract administrative responsibilities as the COs.
However, they do not have the signing authority to bind the Federal Government to any legal
contracting actions.
The requesting program office nominates a Contracting Officer’s Technical Representative
(COTR), who is the CO’s technical expert and representative in the administration of a contract
or task order. Usually, the CO will appoint the COTR by issuing a signed letter of appointment
tailored to meet the needs of each contract. The CO and COTR are required to jointly review all
appointed duties.
Prior to April 28, 2004, the Department of the Treasury Contracting Officer’s Technical
Representatives Handbook (the Handbook) was the primary guidance for the COTRs.6 Part IV
of the Handbook stated, in part, that the COTRs are responsible for reviewing and approving
invoices and vouchers on contracts. It also stated the COTRs will receive instructions regarding
involvement in the review and approval of invoices and vouchers from the CO. Attachment E of
the Handbook also offered, as a sample responsibility for time-and-materials contracts, that the
COTRs are responsible for reviewing and signing off on the invoices to attest to their accuracy.
Fifteen of the 53 invoices we reviewed during this audit were subject to this guidance.
On April 28, 2004, the IRS replaced the Handbook guidance, in part, with a reference to the
Office of Federal Procurement Policy document A Guide to Best Practices for Contract
Administration (the Guide), published in October 1994. The Guide offers, as a practical
technique, that COTRs reviewing vouchers under cost-reimbursement contracts should review,
among other things, contractor timecards to help assess the reasonableness of direct labor costs.

5
 41 C.F.R. Chapter 301 (2005).
6
 Department of the Treasury Acquisition Circular No. 02-01, dated April 28, 2004, deleted references to the
Contracting Officer’s Technical Representatives Handbook. The Circular also stated the Department of the
Treasury would no longer maintain the Handbook.
                                                                                                              Page 3
                      Invoice Audit of the Financial Statement/Government
                     Accountability Office Audit Support Services Contract –
                                        TIRNO-03-K-00167



The Guide also contains directions to review major cost categories such as travel, supplies, other
direct costs, and subcontractor costs to again determine the reasonableness of the claimed costs.
Although the Guide does not include a specific reference to labor-hour contracts, we believe it is
reasonable to infer that administration requirements for cost-reimbursement contracts would also
apply to labor-hour contracts.
The Contract Specialist and CO advised us they were both assigned to this contract within its
final option year, February and September of 2005 respectively, and had limited involvement
with the contract. They were, however, involved in initiating the last 2 contract modifications
that added approximately $1.2 million to extend the contract from July through December 2005.
The Contract Specialist and CO informed us that since they have spent a short time on the
contract, they relied upon the COTR to ensure the contractor’s charges were accurate. The
COTR’s invoice review was to include an analysis of fixed-price expenses, labor cost and hours,
and travel expenses to ensure expense accuracy and that nonlabor expenses were supported by
receipts. However, except for the COTR handbook and his or her own process of verifying
billing charges, he or she did not have any other procedures or guidance to follow for performing
these duties. Further, we did not identify any significant verification performed by the COTR of
actual hours worked, such as a review of contractor-provided payroll or related payment records.
We also did not identify any significant verification performed to ensure travel costs were
supported by receipts.
We believe the initial identification of the unsupported labor and travel charges was directly
related to the incomplete invoice verification process described above. We conclude that if the
IRS was periodically or routinely requiring the contractor to provide such documentation, the
contractor would have been able to react in the same manner to our requests for support. We
will continue to include a review of the IRS’ invoice verification process in future contract
invoice audits and, if warranted, recommend improvements to the process.

Recommendation
Recommendation 1: The Director, Procurement, should require the appropriate CO to review
the identified questionable charges of $22,536.21 and initiate any recovery actions deemed
warranted.
       Management’s Response: IRS management agreed with our recommendation. The
       CO is working closely with the contractor to obtain additional documentation. Upon
       receipt of the supporting documentation, the CO will conduct a thorough analysis,
       determine the amount of any recoverable costs, and initiate the appropriate action to
       recover those costs.




                                                                                           Page 4
                      Invoice Audit of the Financial Statement/Government
                     Accountability Office Audit Support Services Contract –
                                        TIRNO-03-K-00167



Contract Deliverables Were Acceptable
We examined contract correspondence files and interviewed the CO, Contract Specialist, and
COTR to determine whether the contractor’s deliverables were acceptable for the 53 invoices
reviewed. This contract provided professional financial and accounting support services to assist
the IRS in the development of its annual financial statements and in the resolution of material
weaknesses and other issues identified in audits of those financial statements. The contractor
provided the following deliverables to the IRS:
   •   Journal entries including workpapers bound, referenced, and maintained in electronic
       format.
   •   Financial statement workpapers including the working trail balances, general ledger
       balances, and information needed to cross reference key proprietary and budgetary
       balances.
   •   Government property expense usage reports.
   •   Depreciation schedules including proposed entries, monthly accounting, and
       reconciliation to expense data files.
   •   Integrated Financial System transition support.
   •   Project management reports providing the status of the deliverables and corresponding
       tasks.
Based on our limited auditing procedures, nothing came to our attention that would lead us to
believe there were significant problems with the deliverables associated with the invoices
included in our tests.




                                                                                          Page 5
                          Invoice Audit of the Financial Statement/Government
                         Accountability Office Audit Support Services Contract –
                                            TIRNO-03-K-00167



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether selected invoices submitted and
paid under contract number TIRNO-03-K-00167 were appropriate and in accordance with the
contract’s terms and conditions. To accomplish this objective, we:
I.      Analyzed the IRS invoice verification process prior to certifying payment to the
        contractor.
        A. Interviewed the CO and COTR to confirm our understanding of the invoice
           verification process.
        B. Documented invoice processing risks including accuracy, supportability, and
           allowability of invoice charges and concluded as to the overall control environment.
        C. Interviewed IRS personnel involved in the administration of the contract to identify
           any concerns that existed regarding the contractor, its billing practices, or any specific
           invoices.
II.     Verified whether invoice charges submitted by the contractor and paid by the IRS were
        accurate, supported, and allowable.
        A. Identified a sample selection universe from recorded Request Tracking System1
           transactions as of March 8, 2006. This universe contained 98 expense transactions
           totaling $9,640,811.87, which were processed between May 2003 and March 2006.
           We judgmentally selected 40 invoices for review. These 40 invoices, which were
           processed between May 2003 and January 2006, involved $7,544,756.99 in IRS
           payments and represented approximately 78 percent of the total amount paid by the
           IRS.
        B. Included additional invoices in our sample. When we opened our audit with the
           contractor, they provided us with what they considered sufficient documentation for
           13 additional invoices processed between November 2003 and December 2005,
           which totaled $945,371.99. Since these invoices and corresponding support were
           readily available, we decided to include these invoices in our review. Therefore, our
           judgmental sample consisted of 53 invoices totaling $8,490,128.98 that represented

1
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic receipt and acceptance
of items delivered and provides an interface with the Integrated Financial System (the IRS financial accounting
system) for payment processing.
                                                                                                            Page 6
                     Invoice Audit of the Financial Statement/Government
                    Accountability Office Audit Support Services Contract –
                                       TIRNO-03-K-00167



          approximately 88 percent of the total amount paid by the IRS. We believed this
          decision was reasonable and would provide sufficient evidence to accomplish our
          audit objective and would result in acceptable management corrective action, if
          needed.
          This audit did not include procedures to obtain evidence that computer-processed data
          within the IRS’ Request Tracking System were valid and reliable. Although
          used during this audit, the data in general were not considered significant to the
          audit’s objective or resultant findings. We only used the data within the Request
          Tracking System to reasonably verify the universe from which we selected our
          sample of transactions for substantive testing of their accuracy, supportability, and
          allowability. We concluded and reported on those substantive tests. Therefore,
          there was no adverse effect on the audit as a result of not including reliability of
          computer-processed data audit procedures.
       C. For the invoices in the sample, obtained supporting documentation from the IRS and
          contractor and performed the following tests:
          1. Verified the mathematical accuracy of the invoices and supporting
             documentation.
          2. Traced invoice charges to supporting documentation.
          3. Verified whether invoice charges were actually paid by the contractor through
             examination of payroll records and extracts from the contractor’s financial
             records.
          4. Verified whether invoice charges were allowable under the terms and conditions
             of the contract.
III.   Verified through interviews with responsible officials and reviews of project files
       whether the contractor’s performance and deliverables were acceptable, as stipulated in
       the contract, for the invoices included in our sample.




                                                                                         Page 7
                     Invoice Audit of the Financial Statement/Government
                    Accountability Office Audit Support Services Contract –
                                       TIRNO-03-K-00167



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Gary D. Pressley, Lead Auditor
Chinita M. Coates, Auditor
Rashme Sawhney, Auditor
Niurka M. Thomas, Auditor




                                                                                        Page 8
                    Invoice Audit of the Financial Statement/Government
                   Accountability Office Audit Support Services Contract –
                                      TIRNO-03-K-00167



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                         Page 9
                      Invoice Audit of the Financial Statement/Government
                     Accountability Office Audit Support Services Contract –
                                        TIRNO-03-K-00167



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
       •   Questioned Costs – Potential; $22,536.21 (see page 2).

Methodology Used to Measure the Reported Benefit:
We examined invoices and supporting documentation obtained from the IRS Office of
Procurement, as well as documentation received directly from the contractor, to verify charges
for a judgmental sample of 53 invoices. We selected our sample from a universe of
$9,640,811.87 in transactions processed by the IRS. The 53 invoices involved $8,490,128.98 in
IRS payments. Our review resulted in the identification of questionable labor charges of
$22,536.21 because the contractor did not provide the necessary documentation to support that
the charges were accurate and allocable to the contract.




                                                                                         Page 10
       Invoice Audit of the Financial Statement/Government
      Accountability Office Audit Support Services Contract –
                         TIRNO-03-K-00167



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 11
 Invoice Audit of the Financial Statement/Government
Accountability Office Audit Support Services Contract –
                   TIRNO-03-K-00167




                                                      Page 12
